No.

In the
Supreme Court of the United States
IN RE Xiaohua Huang’s patent
infringement litigation
Xiaohua Huang pro se
Petitioner
V.
. Huawei Technology Ltd.
Respondents
On Writ of Certiorari to the United States Court of
Appeals for the Federal Circuit and the US District
Court of Eastern Texas
CERTIFICATE OF WORD COUNT
For
PETION FOR A WRIT OF CERTIORARI
Xiaohua Huang pro se
P.O. Box 1639, Los Gatos, CA95031
Tel: (669) 273 5633
xiaohua_huang@hotmail.com

CERTIFICATE OF WORD COUNT
Pursuant to Rule 33.1(h) of the Rules of this Court, I
certify that the accompanying Petition for a Writ of
Certiorari to the United States Court of Appeals for
the Federal Circuit, which was prepared using
Century Schoolbook 12-point typeface, contains less
than 7695 words, excluding the parts of the document
that are exempted by Rule 33.1(d). This certificate was
prepared in reliance on the word count function of the
word-processing system (Microsoft Office Word 2013)
used to prepare the document.
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on October 10, 2020.

Xiaohua Huang

